This Agreement covers your Student VISA Platinum Credit
Card and/or VISA Debit Card with Cyprus Federal Credit
Union. In this Agreement the words you and your mean each and
all of those who use or sign a Card. We, us and ours mean Cyprus
Credit Union. Card means the Student VISA Platinum Credit
Card and or VISA Debit Card and any duplicates and renewals
we issue. Account means your Student VISA Platinum Credit
Card Line of Credit and or VISA Debit Overdraft Line of Credit
account with us. You agree that if you receive, sign, request, use
or permit others to use or sign any of the Cards issued under this
Agreement that you have accepted and agreed to all of the
following terms, as amended from time to time.
You agree to all procedures required by us or any merchant
which honors your Card as well as all terms on the Card. Any
plural term used in this Agreement shall be deemed singular if
context and construction so require. Any singular term used in
this Agreement shall be deemed plural if context and construction
so require.
1. Responsibility. If we issue you a Card, you agree to repay all
amounts due and the FINANCE CHARGE arising from the use of
the Card and the Card account. You are responsible for charges
made by using this Card. You are also responsible for charges
made by anyone else to whom you give the Card, and this
responsibility continues until the Card is recovered. You cannot
disclaim responsibility by notifying us, but we will close the
account for new transactions if you so request and return all
Cards. Your obligation to pay the account balance continues even
though an agreement, divorce decree, or other court judgment
may direct you or one of the other persons responsible to pay the
account. Any person using the Card is jointly responsible with
you for charges he or she makes and any fees, but if that person
signs the Card, he or she becomes a party to this Agreement and
is also jointly responsible for all charges on the account,
including yours.
2. Lost Card Notification. If you believe the Card has been lost
or stolen, IMMEDIATELY CALL THE CREDIT UNION at:
801-260-7600, 1-800-929-7787 during regular business hours or
1-800-682-6075 after hours. If your PIN has been compromised,
call #1-800-754-4128. A fee may be assessed for replacement of
each lost Card. Refer to the fee schedule.
3. Your Liability for Unauthorized Use. If you believe your
Card or your PIN has been lost or stolen or that someone has
transferred or may transfer money from your account(s) without
your permission, tell us AT ONCE. Telephoning is the best way
of keeping your potential losses down.
4. Credit Line. We have established a self-replenishing VISA
Credit Card Line of Credit and or VISA Debit Line of Credit for
you and have notified you of its amount when we issued the Card
or on your statement. You agree not to let the account balance
exceed this approved Credit Line. Each payment you make on the
account will restore your Credit Line by the amount of the
payment which is applied to principal. You may request an
increase in your Credit Line by contacting us, and approval by a
loan officer. By giving you written notice we may reduce your
Credit Line from time to time, or with good cause, revoke your

Student VISA Platinum
Credit Card / VISA Debit
Card Agreement
Card and Credit Line. Good cause includes your failure to comply
with this Agreement, or our adverse reevaluation of your
creditworthiness. You may also terminate this Agreement at any
time, but termination by either of us does not affect your
obligation to pay all the amounts due plus FINANCE CHARGES.
The Card(s) remain our property and you must recover and
surrender to us all Cards upon our request and upon termination
of this Agreement, or pay necessary recovery costs incurred by
us.
5. Credit Information. Your account is being established
without credit information being obtained. We will not report
this account to any credit reporting agency until after you reach
the age of 18 or unless you are currently age 18.
6. Monthly Payment. We will mail you a statement every month
showing your Previous Balance of purchases and cash advances
for the VISA Credit Card and or withdrawals for VISA Debit
Card, the current transactions on your account, the remaining
credit available under your Credit Line, the New Balances of
purchases Student VISA Platinum credit Card cash advances and
VISA Debit withdrawals, the Total New Balance, the FINANCE
CHARGE, any other billed fees, and the Minimum Payment
required. Your statement will show the required payment you
must make for that statement and the date it is due. By separate
agreement you may authorize us to charge the minimum payment
automatically to your Share Savings or Checking Account with
us. You may pay more frequently, pay more than the Minimum
Payment or pay the Total New Balance in full, and you will
reduce the FINANCE CHARGE by so doing.
a. VISA Credit Card Monthly Payment. Every month you
must pay at least the Minimum Payment upon receipt of your
statement. The Minimum Payment will be either (a) 3% of your
Total New Balance, or $25.00, whichever is greater; or (b) your
Total New Balance, if it is less than $25.00, plus any portion of
the Minimum Payment(s) shown on prior statement(s) which
remains unpaid. In addition, if at any time your total New
Balance exceeds your Credit Line, you must immediately pay the
excess amount. We will apply your payments first to the
FINANCE CHARGE on both purchases and cash advances, then
to any billed fees, then to the principal balance of purchases and
cash advances.
b. VISA Debit Card Monthly Payment. The Minimum
Payment will be either (a) 3% of your Total New Balance, or
$25.00, whichever is greater; or (b) your Total New Balance, if it
is less than $25.00, plus any portion of the Minimum Payment(s)
shown on prior statement(s) which remains unpaid. In addition,
at any time your total New Balance exceeds your Line of Credit,
you must immediately pay the excess amount. We will apply your
payments first to the FINANCE CHARGE on both purchases and
withdrawals, then to any billed fees, then to the principal balance
of purchases and withdrawals.

No Cyprus Credit Union employee or agent will request a cardholder to divulge their PIN in an oral or written manner.

7. Finance Charges.
a. VISA Credit Card. You can avoid FINANCE CHARGES
on purchases by paying the statement balance in full each month
within 25 days of the statement closing date. If you pay part of
the purchases included in the statement balance within 25 days of
the statement closing date, FINANCE CHARGES will not apply
to the amount paid. However, cash advance fees may still apply.
If the payment due date falls on a non-business day, payment
must be received by the last business day prior to the due date.
You may be subject to a fixed rate or variable rate of interest.
The applicable rate will be disclosed to you on your Disclosure
Statement and monthly statements. Interest is calculated by
multiplying the applicable daily interest rate times the average
daily balance of purchases and cash advances. The daily interest
rate is calculated by dividing the applicable rate by 365. The
principal balances of purchases and cash advances are determined
each date during the statement period beginning with the principal
portion of your Previous Balances, reduced by payments you
make and credits we apply, and increased by purchases and cash
advances you make and debit adjustments we make during the
statement period. The daily principal balances are totaled and
divided by the number of days in the statement period. This
produces separate average daily principal balances for purchases
and cash advances to which the daily periodic rate is applied. The
variable rate is the Wall Street Journal Prime Rate published on
the last day of the month plus a margin. The margin for the VISA
Platinum and VISA Platinum Plus is based on your credit risk and
will be disclosed to you on your Disclosure Statement. The
maximum variable ANNUAL PERCENTAGE RATE is the
highest legal rate. The maximum increase or decrease your rate
can change per calendar year is 3.0%.
b. VISA Debit Card. Your interest is calculated by
multiplying the applicable daily rate times the average daily
balance of purchases and withdrawals. The fixed rate is 12.99%.
The daily rate is calculated by dividing the applicable rate by 365.
The principal balances of purchases and withdrawals are
determined each day during the statement period, beginning with
the principal portion of your Previous Balances, reduced by
payments you make and debit adjustments we make during the
statement period.
8. Default. You will be in default if you fail to make any
Minimum Payment within 10 days after your statement due date.
You will also be in default if your ability to repay us is materially
reduced, you are a debtor in a bankruptcy or insolvency
proceedings, you pass away, you fail to abide by this Agreement
or if the value of our security interest materially declines. We
have the right to demand immediate payment of your full account
balance if you default. To the extent permitted by law, you will
also be required to pay our collection expenses, including court
costs and reasonable attorneys’ fees.
9. Using the Card. To make a purchase or cash advance, there
are several methods for use of the Card. You may present the
Card to a participating VISA plan merchant, to us, or to another
financial institution. You may complete the transaction by using
your Personal Identification Number (PIN) in conjunction with
the Card in an Automated Teller Machine or other type of
electronic terminal that provides access to the VISA system. You
may provide your VISA Card information to merchants either by
phone or by mail. The monthly statement will identify the
merchant, electronic terminal, or financial institution at which
transactions were made, but sales, cash advance, credit or other
slips cannot be returned with the statement. The Credit Union

may make a reasonable charge for photo copies of documents you
request.
10. Returns and Adjustments.
a. VISA Credit Card. Merchants and others who honor the
Card may give credit for returns or adjustments, and they will do
so by sending us a credit slip which we will post to your account.
If your credits and payments exceed what you owe us, we will
hold and apply this credit balance against future purchases and
cash advances, or if it is $1.00 or more, refund it upon your
written request.
b. VISA Debit Card. Merchants and others who honor the
Card may give credit for returns or adjustments, and they will do
so by sending us a credit slip which we will post to your
Checking Account.
11. Foreign Transactions. Purchases and cash advances made in
foreign countries and foreign currencies will be billed to you in
U.S. Dollars. The conversion rate will be made in accordance
with the operating regulations for international transactions
established by VISA International, Inc. VISA has the right to
assess a Foreign Conversion Fee. This fee could be up to 1.5% of
the transaction amount
12. Plan Merchant Disputes. We are not responsible for the
refusal of any plan merchant or financial institution to honor your
Card. We are subject to claims and defenses (other than tort
claims) arising out of goods and services you purchase with the
Card only if you have made a good faith attempt, but have been
unable to obtain satisfaction from the plan merchant, and: (a) your
purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than
$50.00 and was made from a plan merchant in your state or
within 100 miles of your home. Any other disputes you must
resolve directly with the plan merchant.
13. Cross Collateral Agreement. You hereby pledge as security
for the VISA Line of Credit, any collateral that you have pledged
as security on any other existing loan or advance at the credit
union or which you will pledge as security in the future.
Understand that this is referred to as a cross collateral agreement,
and that you knowingly and voluntarily grant the credit union the
foregoing described security interests.
14. Lien and Right to Setoff. You hereby grant us a lien and
right to setoff on all shares and accumulated dividends in any
individual, joint, multiple party, or transaction accounts. The
Credit Union shall have a statutory lien and right of setoff in all
shares and accumulated dividends in all individual, joint, multiple
party, or transaction accounts in which any of you has any
interest. We may exercise our lien rights without notice. The lien
hereby created shall be a lien on the future amount in any
accounts and is a possessor lien.
15. Effect of Agreement. This Agreement is the contract which
applies to all transactions on your account even though the sales,
cash advance, credit or other slips you sign or receive may
contain different terms. We may amend this Agreement from
time to time by sending you the advance written notice as
required by law. To the extent the law permits, and we indicate in
our notice, amendments will apply to your existing account
balance as well as to future transactions.
16. Annual Fee.
No annual fees are charged for Student
Platinum VISA Credit Cards or Debit Cards.

No Cyprus Credit Union employee or agent will request a cardholder to divulge their PIN in an oral or written manner.

17. Late Charge. A late charge of 5% of the payment or $25
whichever is greater, shall be charged on any payment or partial
payment not made within 10 days after its due date.
18. Final Expression. This Agreement is the final expression of
the terms of this Card and Account between Cyprus Credit Union
and the member(s)/borrower(s)/ user(s); this written Agreement
may not be contradicted by evidence of any alleged oral
agreement
19. Illegal Transaction. Cards cannot be used for online
gambling or any other illegal activity. The Card issuer cannot be
held liable for these transactions.
20. Your Billing Rights.
The following is important information about your rights and
our responsibilities under the Fair Credit Billing Act.
Notify Us in Case of Errors or Questions About Your Bill. If
you think your bill is wrong, or if you need more information
about a transaction on your bill, write us on a separate sheet at the
address listed on your bill. Write to us as soon as possible, We
must hear from you no later than 60 days after we sent you the
first bill on which the error or problem appeared. You can
telephone us, but doing so will not preserve your rights. In your
letter give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe
there is an error.
If you need more information, describe the item you are not
sure about.
If you have authorized us to pay your credit card bill
automatically from your share savings or checking account, you
can stop the payment on any amount you think is wrong. To stop
the payment your letter must reach us three business days before
the automatic payment is scheduled to occur.

If we don’t follow these rules, we can’t collect the first $50.00
of the questioned amount, even if your bill was correct.
Special Rule for Credit Card Purchases. If you have a problem
with the quality of property or services that you purchased with a
credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the
remaining amount due on the property or services. There are two
limitations on this right: (a) You must have made the purchase in
your home state, or if not within your home state, within 100
miles of your current mailing address; and (b) The purchase price
must have been more than $50.00.
These limitations do not apply if we own or operate the
merchant, or if we mailed you the advertisement for the property
or services.
22. Copy received. You acknowledge receipt of a copy of this
Agreement.
23. Shares Secured. If this is a share secured VISA account, all
amounts in any accounts at the Credit Union are pledged and
assigned as security for any amounts owed. A specific amount
may be held as security and cannot be withdrawn. In the event of
default, the Credit Union may apply any amounts in any accounts
you are associated with, without notice or legal process to the
entire unpaid account balance, costs, fees and other amounts due.

Your Rights and Our Responsibilities After We Receive Your
Written Notice. We must acknowledge your letter within 30
days, unless we have corrected the error by then. Within 90 days,
we must either correct the error or explain why we believe the bill
was correct.
After we receive your letter, we cannot try to collect any
amount you question, or report you as delinquent. We can
continue to bill you for the amount you question, including
finance charges, and we can apply an unpaid amount against your
credit limit. You do not have to pay any questioned amount
while we are investigating, but you are still obligated to pay the
parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not
have to pay any finance charges related to any questioned
amount. If we didn’t make a mistake, you may have to pay
finance charges, and you will have to make up any missed
payments on the questioned amount. In either case, we will send
you a statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may
report you as delinquent. However, if our explanation does not
satisfy you and you write to us within ten days telling us that you
still refuse to pay, we must tell anyone we report you to that you
have a question about your bill. And, we must tell you the name
of anyone we reported you to. We must tell anyone we report
you to that the matter has been settled between us when it finally
is.

No Cyprus Credit Union employee or agent will request a cardholder to divulge their PIN in an oral or written manner.
Rev. 12/10/12 CFCU

